Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE’S CURRENTLY
     NOT COLLECTIBLE
      OVERPAYMENTS




                    Daniel R. Levinson
                     Inspector General

                       June 2013
                     OEI-03-11-00670
EXECUTIVE SUMMARY: MEDICARE’S CURRENTLY NOT COLLECTIBLE
OVERPAYMENTS
OEI-03-11-00670


WHY WE DID THIS STUDY

The Centers for Medicare & Medicaid Services (CMS) identifies billions of dollars in
Medicare overpayments to health care providers each year. In fiscal year (FY) 2010,
overpayments totaled $9.6 billion. However, not all overpayments are recovered.
Overpayments for which the provider has not made a repayment for at least 6 months
after the due date on the Medicare demand letter are classified as “currently not
collectible” (CNC) and are not reported on CMS’s annual financial statements. These
overpayments are not reported on the financial statements because they are not likely to
be recovered. This report provides information about CNC overpayments.

HOW WE DID THIS STUDY

We requested details from CMS about CNC overpayments in FY 2010 and summary
financial data for FYs 2007 to 2010. CMS provided most of the data from its Healthcare
Integrated General Ledger Accounting System (HIGLAS). We also surveyed CMS and
all its claims processing contractors to identify (1) hindrances to debt collection and
(2) strategies to reduce the number and dollar amount of overpayments that become
CNC.

WHAT WE FOUND

CMS reported $543 million in new CNC overpayments across all contractors in FY 2010.
However, CMS provided detailed information on $69 million in CNC overpayments for
only seven contractors. Citing contractor transitions, CMS did not provide detailed data
for the remaining 32 contractors. For 54 percent of CNC overpayments associated with
the seven contractors, the provider type was missing in HIGLAS. For the seven
contractors, 97 percent of FY 2010 CNC overpayments were not recovered. According
to contractors, inaccurate provider contact information delays or prevents some
overpayment demand letters from reaching providers. In addition, CMS and contractors
reported that expanding the types of provider identifiers used to recover payments could
improve debt collection efforts.

WHAT WE RECOMMEND

CMS should: (1) ensure that the HIGLAS variable for provider type is populated for all
overpayments, (2) ensure that demand letters are mailed to the contacts and addresses
identified by the provider, and (3) use tax identification numbers and provider transaction
access numbers in addition to national provider numbers for the collection of
overpayments. CMS partially concurred with our first recommendation, did not concur
with our second recommendation, and concurred with our third recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings........................................................................................................8 

           CMS reported $543 million in new CNC overpayments across all 

           contractors in FY 2010, but only provided detailed information on 

           CNC overpayments for seven contractors .......................................8 

           Ninety-seven percent of CNC overpayments were not recovered 

           for the seven contractors with recovery information and newly 

           classified CNC overpayments were over half a billion dollars 

           annually..........................................................................................10 

           Contractors reported that some demand letters do not reach 

           providers, or reach providers late, because of inaccurate contact 

           information .....................................................................................11

           CMS and contractors reported that expanding the types of 

           provider identifiers used to offset payments could improve 

           could improve debt collection efforts ............................................11

Conclusion and Recommendations ............................................................13 

           Agency Comments and Office of Inspector General Response.....15 

Appendixes ................................................................................................17 

           A: Contractor Recommendations Regarding Currently Not 

           Collectible Debt .............................................................................17 

           B: Agency Comments ..................................................................19 

Acknowledgments......................................................................................22 

                   OBJECTIVES
                   1.	 To describe details of Medicare Part A and Part B overpayments
                       identified in fiscal year (FY) 2010 and classified currently not
                       collectible (CNC) as of December 31, 2011.
                   2.	 To identify the annual dollar amount of new CNC overpayments from
                       FY 2007 to FY 2010.
                   3.	 To identify issues that hinder efforts to reduce the number and dollar
                       amount of overpayments that become CNC.
                   4.	 To identify strategies for reducing the number and dollar amount of
                       overpayments that become CNC.

                   BACKGROUND
                   In FY 2010, the Centers for Medicare & Medicaid Services (CMS)
                   identified $9.6 billion in Medicare overpayments.1 Overpayments are
                   improper payments to providers that need to be returned to the Medicare
                   program, e.g., payment for a noncovered service. An overpayment
                   becomes a debt owed to the Federal Government when CMS makes a
                   determination of overpayment.2 It is recognized as an account receivable
                   in Medicare’s financial system once a demand letter is issued.3
                   CNC is a financial accounting classification for any accounts receivable
                   for which the provider4 has not made a repayment for at least 6 months
                   after the due date on the first Medicare letter requesting repayment.5 CNC
                   debt continues to be referred for collection but is not reported on CMS’s
                   financial statements because collection is unlikely.6
                   This is the first OIG study on all Medicare Parts A and B CNC
                   overpayments.
                   Contractor Responsibility
                   CMS contracts with private companies known as carriers, fiscal
                   intermediaries, and Medicare Administrative Contractors (MAC) to fulfill
                   Medicare administrative functions such as processing claims, making

                   1
                     CMS response to January 27, 2012, Office of Inspector General (OIG) data request.
                   2
                     CMS, Medicare Financial Management Manual, Pub. No. 100-06 (Manual), ch. 3, 

                   § 10.

                   3
                     Ibid., ch. 5, § 400.21.

                   4
                     In this report, provider refers to any type of Medicare provider or supplier 

                   (e.g., hospital, physician, durable medical equipment, prosthetics, orthotics, and supplies

                   (DMEPOS) supplier) unless otherwise indicated.

                   5
                     Manual, ch. 5, § 400.20. 

                   6
                     CMS, CMS Financial Report Fiscal Year 2011, p. 59. 


Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                               1
                   payments, recovering overpayments, and reporting on all financial
                   activities. These contractors process over a billion Medicare claims each
                   year.
                   Contractor Identifiers
                   Some administrative contractors are responsible for more than one type of
                   claim activity, e.g., Parts A and B. CMS uses contractor identifiers to
                   identify the contractor and type of claim activity in a particular geographic
                   area. In this report, we use the term “contractor” to refer to these
                   contractor identifiers. There were 39 contractors in FY 2010.
                   Overpayment Recovery Activities
                   The Manual contains requirements for contractors regarding overpayment
                   recovery activities. Once overpayments are identified, contractors are
                   required to take timely and aggressive efforts to collect the debts.7 CMS
                   has stated that “although the term ‘aggressive’ may not be defined
                   specifically in the Manual, CMS considers the collection processes
                   outlined in the Manual to be aggressive.”8
                   Contractor overpayment recovery activities required by CMS include:9
                   	 creating and managing the accounts receivables for the overpayments,
                   	 mailing demand letters to providers for repayment,
                   	 making phone calls to providers that have not responded to demand
                      letters,
                   	 implementing offsetting of providers’ future payments to recover
                      overpayments,
                   	 establishing and managing providers’ extended repayment plans,
                   	 mailing notices to providers of intention to refer the overpayment to
                      the Department of the Treasury (Treasury) for collection, and
                   	 referring eligible overpayments to Treasury for collection.
                   Contractors send demand letters to providers with overpayments.
                   Typically, the first demand letter states that the provider was overpaid, and
                   that if the overpayment is not repaid in full within 30 days, the debt will
                   become delinquent on day 31 and interest will begin to accrue. The letter




                   7
                     45 CFR § 30.10(a); Manual, ch. 3, § 10.
                   8
                     CMS response to OIG survey, March 2012.
                   9
                     Manual, ch. 3, 4, and 5.

Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                            2
                   also explains methods the provider can use to repay the debt and the
                   provider’s right to appeal the overpayment determination.10
                   When a provider has not responded by day 45 to a Part A demand letter or
                   by day 60 to a Part B demand letter, the contractor must telephone the
                   provider to seek recovery of the overpayment.11
                   Although providers are responsible for updating their addresses with
                   CMS, if letters are returned as undeliverable, the contractor must attempt
                   to locate the provider through various means, including checking with
                   State and local medical societies.12
                   Contractors send a final demand letter, known as the “Intent to Refer
                   Letter,” if the provider has not responded to earlier contacts before the
                   debt becomes 90 days delinquent. It informs the provider that the
                   overpayment will be referred to Treasury for collection if the provider
                   does not repay within 60 days or request an extended repayment plan.
                   Recovering Overpayments. Contractors must begin recovering
                   overpayments by offsetting payments unless the provider sends a check
                   for the full amount of the overpayment or requests an extended repayment
                   plan within a certain timeframe.13 Contractors collect the majority of
                   overpayments through offsetting. Offsetting is the process whereby funds
                   are deducted from a future payment to repay a current debt. Contractors
                   use the provider number to identify the provider payments that are to be
                   offset.
                   In 2012, CMS issued instructions to contractors to implement provider
                   requests for immediate offset.14 Immediate offset prevents interest from
                   accruing on the overpayment if the debt is recovered in full before day 31.
                   A request for immediate offset is considered a voluntary repayment by the
                   provider.
                   In 2012, CMS also issued instructions to contractors to collect
                   overpayments owed by suppliers of DMEPOS that maintain surety
                   bonds.15 DMEPOS suppliers must maintain a surety bond of at least
                   $50,000 to enroll and remain enrolled in the Medicare program.


                   10
                      Upon receiving a demand letter, if a provider submits a timely request for a first- or 

                   second-level appeal of the overpayment determination, contractors must cease (or not 

                   begin) recoupment until these appeals reach their conclusion. This policy is referred to as 

                   “Limitation on Recoupment (935)” in the Manual, ch. 3, § 200.

                   11
                      Manual, ch. 4, §§ 10 and 80.2. 

                   12
                      Ibid. 

                   13
                      Ibid. 

                   14
                      CMS, Change Request 7688, January 27, 2012, revised February 9, 2012. 

                   15
                      CMS, Change Request 7167, January 20, 2012; Change Request 7744, April 20, 2012. 



Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                         3
                   Overpayments up to the full value of the bond can be collected from the
                   surety bond company.
                   In addition, contractors can refer outstanding overpayments to Treasury
                   for “cross servicing,” i.e., for collection through one of Treasury’s
                   programs.16 An example is the Treasury Offset Program, which may offset
                   eligible Federal and State payments to recover the Medicare overpayment.
                   Treasury uses a provider’s tax identification number to identify the
                   payments to be offset.
                   Contractors have the option of referring overpayments to Treasury before
                   the debt is 180 days delinquent.17 However, if the overpayment is more
                   than 180 days delinquent, contractors must refer it to Treasury. Debts are
                   not eligible for referral to Treasury if they are less than $25, in bankruptcy
                   status, in appeal status, under investigation by a law enforcement agency
                   and the investigating agency has instructed the contractor not to attempt
                   collections, or the debtor is deceased.18
                   Once a debt is referred to Treasury, the contractor ceases active collection
                   efforts but maintains the accounts receivable in its accounting system for
                   potential offset. The contractor also ensures that any collections by
                   Treasury are posted to the account and entered into CMS’s Debt
                   Collection System.
                   CNC Classification
                   According to the Manual, the CNC classification of an overpayment does
                   not stop collection efforts and has no bearing on whether the overpayment
                   is eligible for referral to Treasury or whether future Medicare payments to
                   the provider can be offset. CMS classifies overpayments as CNC because
                   they are not likely to be collected. Overpayments classified as CNC are
                   not reported on CMS financial statements.19
                   An overpayment is eligible for CNC classification when it is in the amount
                   of $25 or more and is at least 180 days delinquent, without any collection
                   activity within the last 180 days.




                   16
                      In a May 2010 report, Collection Status of Medicare Overpayments Identified by

                   Program Safeguard Contractors, OEI-03-08-00030, OIG reported that Treasury’s cross-

                   servicing program does not have a high rate of return. For each year between FYs 2003 

                   and 2007, the program never collected more than 2 percent of all debt referred to it. 

                   17
                      Manual, ch. 4, § 70.5. 

                   18
                      Ibid., § 70.6. 

                   19
                      CMS, CMS Financial Report Fiscal Year 2011, p. 59. 


Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                     4
                   A debt can be classified CNC regardless of referral to Treasury,
                   bankruptcy, appeals, fraud and abuse investigation, or litigation, or
                   whether the debtor is deceased.20
                   The Manual instructs contractors to seek approval from the CMS regional
                   office before classifying an overpayment as CNC.21 However, according
                   to CMS staff, overpayments are classified CNC through an automated
                   process in the Healthcare Integrated General Ledger Accounting System
                   (HIGLAS) when they reach a certain age. CMS reviews the debts after
                   CNC classification and will notify contractors if it disapproves of the
                   classification.
                   HIGLAS
                   CMS began implementing HIGLAS in 2005 to meet provisions of the
                   Federal Financial Management Improvement Act of 1996. Since 2005,
                   CMS has been transitioning its Medicare Part A and Part B contractors
                   into HIGLAS on a staggered basis. As of FY 2010, 17 of 39 contractors
                   had yet to be fully transitioned to HIGLAS.
                   CMS expects HIGLAS to enhance CMS’s “oversight of claims
                   administration contractor financial operations … [and] provide high
                   quality, timely data for decision making and performance measurement.”22
                   CMS Evaluation of Contractors’ Recovery Activities
                   CMS reported that it monitors contractor timeliness on the following
                   recovery activities: issuing demand letters, posting updates to debts,
                   notifying providers of intention to refer debt to Treasury, and referring
                   eligible debts to Treasury.
                   CMS has stated that it reviews contractor performance through onsite
                   visits, desk reviews, and analyses of financial reports. It uses review
                   protocols and performance standards to monitor contractor performance.
                   It also reviews contractors’ monthly status reports with details related to
                   overpayment recovery.
                   Previous OIG Work
                   In a 2008 early alert memorandum, OIG described associations between
                   selected DMEPOS suppliers that had CNC debts exceeding $50,000 and
                   other closely associated businesses that received Medicare payments.23

                   20
                      Manual, ch. 5, § 400.20. If the debt is less than $25 but otherwise eligible for CNC
                   classification, contractors are required to recommend that CMS terminate collection
                   activity.
                   21
                      Ibid. 

                   22
                      CMS, Financial Report Fiscal Year 2011, p. 20. 

                   23
                      OIG, Early Alert Memorandum: Payments to Medicare Suppliers and Home Health

                   Agencies Associated With “Currently Not Collectible” Overpayments, OEI-06-07-00080, 

                   November 2008.


Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                    5
                   The results of the study indicated that individuals associated with CNC
                   overpayments could inappropriately receive Medicare payments by
                   omitting owner/manager information on their enrollment applications and
                   working through other DMEPOS suppliers and home health agencies.
                   OIG stated that although, taken alone, the finding that certain suppliers
                   with CNC debt were associated with other suppliers receiving payments
                   did not establish improper activity, CMS may determine that such
                   affiliations justify enhanced oversight.

                   METHODOLOGY
                   Data Collection and Analysis
                   Financial Data From CMS. In January 2012, we requested that CMS
                   provide detailed financial data about overpayments demanded in FY 2010
                   and classified as CNC as of December 31, 2011. We received detailed
                   data for 7 of 39 contractors. Details included the contractor’s identifier
                   number, date the accounts receivable was created, name of the provider,
                   provider type, claim type, amount of the overpayment when it became
                   CNC, amount recovered on milestone dates before and after the
                   overpayment became CNC, and amount owed on the overpayment as of
                   December 31, 2011. CMS extracted the data from HIGLAS.
                   We also collected summary financial data for FYs 2007 to 2010 on
                   overpayments, CNC overpayments, and cumulative CNC overpayments.
                   CMS extracted the data from HIGLAS for contractors using HIGLAS, and
                   from its Contractor Administrative Budget and Financial System (CAFM)
                   for contractors not using HIGLAS.
                   We sent our original request for both detailed and summary financial data
                   to CMS in January 2012. As of April 2012, we had not received the
                   detailed data, and the summary information we received did not properly
                   address our request. Therefore, we met with CMS to discuss these issues
                   and subsequently revised our request for both the detailed and summary
                   data. We received detailed data for seven contractors and summary data
                   for all contractors in June 2012. We continued to request and receive
                   clarifications regarding the data until September 2012.
                   We reviewed the detailed financial data for FY 2010 to identify the
                   number and dollar amount of CNC overpayments by contractor for the
                   seven contractors. We also identified the types of providers with CNC
                   overpayments and the amount of money recovered on CNC overpayments
                   as of December 31, 2011, for these contractors.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                         6
                   We reviewed the summary financial data for FYs 2007 to 2010 to
                   determine the level of CNC debt each year and how it trended over this
                   period.
                   CMS Survey. We surveyed CMS’s Division of Medicare Debt
                   Management, Financial Services Group in March 2012 to identify its
                   strategies, policies, and procedures for recovering overpayments and
                   reducing CNC debt. We also used the survey to determine CMS’s
                   perspective on the barriers that prevent overpayment collection and
                   changes needed to overcome the barriers.
                   Contractor Survey. We surveyed all CMS contractors in March 2012 to
                   identify their strategies and procedures for collecting overpayments before
                   they become CNC, issues they encounter that make it difficult to collect
                   overpayments before they become CNC, and changes they believe are
                   needed.
                   We obtained from CMS a list of contractors’ corporate executives. We
                   sent the executives instructions to complete one survey each for their
                   Parts A and B MAC, durable medical equipment (DME) MAC, carrier,
                   and fiscal intermediary lines of business. In total, they completed 23
                   surveys. In our analysis, we counted each survey as one contractor, and
                   we report the frequency of contractor responses to survey questions from
                   the 23 surveys. Table 1 shows the number of each type of contractor that
                   completed the survey.

                   Table 1: Contractors Completing OIG Survey
                    Type of Contractor                                   Number of Surveys

                    Parts A and B MAC                                                  11

                    DME MAC                                                             4

                    Carrier                                                             4

                    Fiscal Intermediary                                                 4

                      Total                                                            23
                   Source: OIG survey, March 2012.


                   Limitations
                   We did not independently verify financial data that CMS provided, nor did
                   we independently verify survey responses from CMS and its contractors.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.



Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                           7
                   FINDINGS
                   CMS reported $543 million in new CNC overpayments
                   across all contractors in FY 2010, but only provided
                   detailed information on $69 million in CNC
                   overpayments for seven contractors
                   For FY 2010, CMS reported $543 million in total new CNC overpayments
                   across all 39 contractors. However, CMS provided detailed data for only
                   seven. These seven contractors processed 22 percent of Medicare
                   payments. CMS determined that these were the only contractors for which
                   HIGLAS had detailed and consistent information on CNC overpayments.
                   These seven contractors represented 13 percent or $69.4 million of the
                   total overpayments classified as CNC in FY 2010. The number of CNC
                   overpayments for these contractors ranged from 1 to 55,715, for a total of
                   70,530.
                   Citing contractor transitions, mergers, and splits, CMS could
                   not provide data consistently for most contractors
                   CMS stated that its inability to provide consistent detailed data for the
                   remaining 32 contractors was caused in part by workloads being
                   transitioned to a new contractor, being added to a contract involving a
                   merger, or being split from a former workload. Since 2005, CMS has been
                   transitioning contractors to meet the competitive contract requirements of
                   contracting reform.24 Under this reform, CMS has been replacing carriers
                   and fiscal intermediaries with MACs and the transitions were not yet
                   complete as of December 2012.
                   CMS decided not to transfer all overpayment details to HIGLAS
                   when contractors made the transition from other systems
                   Various types of financial data are maintained in HIGLAS. However,
                   CMS stated that during contractor transitions to HIGLAS, it transferred
                   only summary data for years prior to the transition because of the volume
                   of data maintained by the contractor for those prior years. Therefore, at
                   the time of transfer to HIGLAS, the current status of the overpayments
                   was transferred but the original overpayment amounts and any collection
                   activity were not transferred. Once the contractor transferred to HIGLAS,
                   the detailed data for years prior to the transfer were not available in
                   HIGLAS.



                   24
                      The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
                   required contracting reform.

Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                8
                   CMS and its contractors lack an automated method for
                   extracting certain CNC overpayment information from its
                   systems
                   CMS reported that some of the detailed data OIG requested in
                   January 2012 would have to be searched for manually and then manually
                   entered into a spreadsheet. One contractor alone estimated that it would
                   take 3,421 staff hours to look up and enter principal and interest on its
                   account receivables that became CNC for the milestones requested by
                   OIG. In April 2012, OIG sent a revised request to CMS that aimed to
                   reduce the data collection burden. The revised request allowed CMS to
                   provide available detailed data while not requiring extensive effort on the
                   part of individual contractors.
                   The details we requested included information on the dollar amount of the
                   overpayment and the amount recovered on certain dates before and after
                   the overpayment became CNC. Without this information for all
                   contractors, CMS would not be able to determine the range of individual
                   overpayments in demand letters, the percentage of overpayment dollars in
                   a specific year that were classified CNC, and the number of days after
                   which debt recoveries fall off.
                   Even though CMS and contractors maintain automated systems, certain
                   data can be retrieved and manipulated only manually. According to the
                   independent auditors of CMS’s financial statements for FY 2011,
                   Medicare contractors …
                         continue to rely on a combination of claims processing
                         systems, personal computer-based software applications and
                         other ad hoc systems to tabulate, summarize and prepare
                         information that is reported to CMS. The accuracy of the
                         financial reports remains heavily dependent on inefficient,
                         labor-intensive manual processes that are also subject to an
                         increased risk of inconsistent, incomplete or inaccurate
                         information being submitted to CMS.25
                   Provider type was not available for 54 percent of the CNC
                   overpayments with detailed data
                   One of the variables in HIGLAS is provider type. For 54 percent (38,181)
                   of the CNC overpayments with detailed data, CMS could not provide the
                   provider type. When this information is missing, CMS cannot identify
                   overpayments across provider type, and therefore cannot target its efforts
                   to reduce CNC debt among certain types of providers.


                   25
                        CMS, Financial Report Fiscal Year 2011, p. 119.

Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                              9
                   The overpayments with missing provider type were all for Part B. CMS
                   reported that the Part A provider type is a mandatory field in HIGLAS, and
                   that some of the Part B provider types were missing because of manual
                   entry of the provider type into HIGLAS or data transfer into HIGLAS.
                   The 7 contractors with detailed data were responsible for a total of
                   70,530 CNC overpayments. Of the CNC overpayments with a provider
                   type (32,349), the most common type was internal medicine physician
                   (11,615).

                   Ninety-seven percent of CNC overpayments were not
                   recovered for the seven contractors with recovery
                   information and newly classified CNC overpayments
                   were over half a billion dollars annually
                   For the seven contractors with detailed data, 97 percent of FY 2010 CNC
                   overpayments were not recovered as of December 31, 2011. The total
                   amount of CNC overpayments for the seven contractors was $69.4
                   million, with recoveries of $2.4 million. The individual CNC
                   overpayment amounts for the seven contractors ranged from $25 to
                   $2.8 million.
                   As shown in Table 2, the annual amount of newly classified CNC
                   overpayments for all contractors was over half a billion dollars from
                   FY 2007 through FY 2010. New CNC debt was highest in FY 2008, when
                   it was almost $1 billion.
                   In the 4-year period from FY 2007 to FY 2010, new CNC overpayments
                   for all contractors represented 6 to 9 percent of total overpayments each
                   year.26 In FY 2010, the cumulative dollar amount of CNC overpayments
                   was $10.3 billion.

                   Table 2: New CNC Overpayments, FYs 2007–2010
                    Fiscal                                                    New CNC     Cumulative CNC
                                        Payments         Overpayments
                    Year                                                  Overpayments     Overpayments
                    2007         $300,079,271,648        $8,949,356,467    $645,773,093    $7,636,015,057

                    2008         $308,018,573,321      $10,081,999,497     $919,048,278    $8,414,602,533

                    2009         $311,435,787,217        $9,859,838,882    $896,945,631    $9,381,427,037

                    2010         $335,866,123,715        $9,626,517,110    $542,528,449   $10,308,752,975

                   Source: CMS, HIGLAS, and CAFM.


                   26
                     These statistics are based on CMS summary financial data. The CNC classification for
                   overpayments in a particular year could be based on overpayments identified and
                   demanded in a previous year. Overpayments identified at the end of a FY may not be
                   classified as CNC until the following FY. CNC overpayments may include
                   overpayments that are under appeal.


Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                     10
                   Contractors reported that some demand letters do not
                   reach providers, or reach providers late, because of
                   inaccurate contact information
                   Eight of twenty-three contractors surveyed said they do not encounter
                   difficulties in trying to reduce debt before it becomes CNC. Of the
                   remaining 15, more than half (9) reported issues with the accuracy of
                   provider contact information. These contractors stated that provider
                   names and addresses on demand letters are not necessarily correct or are
                   not the ones that providers have requested be used to ensure prompt
                   response.
                   HIGLAS creates demand letters and inserts the providers’ contact
                   information. Contractors reported that some letters are returned as
                   undeliverable. Some contractors also noted that demand letters do not
                   reach providers that have been terminated from Medicare or are out of
                   business. Other letters do not reach the right contact person in a
                   provider’s organization promptly. Part A providers, in particular, want
                   letters sent to an address that is different from the facility address
                   maintained in HIGLAS.

                   CMS and contractors reported that expanding the
                   types of provider identifiers used to offset payments
                   could improve debt collection efforts
                   In addition to national provider identification numbers, CMS and
                   contractors reported that other identifiers, such as tax identification
                   numbers and provider transaction access numbers (PTAN),27 would help
                   with recoveries.
                   CMS staff has stated that providers can escape offsetting when they
                   change or receive additional national provider identification numbers.
                   Identifying providers by tax identification number would be a more
                   reliable way of collecting overpayments through offsetting. Two
                   contractors also suggested using tax identification numbers to identify
                   affiliated providers and offset their payments to repay providers’
                   overpayments.
                   As mentioned earlier, Treasury uses tax identification numbers in its
                   payment-offsetting programs. CMS reported that as of May 2011,
                   Treasury’s Federal Payment Levy Program (FPLP) began collecting
                   Medicare debts by offsetting Medicare payments for contractors related to
                   the contractor for which the debt was originally identified. FPLP uses a

                   27
                      Contractors assign PTANs to providers upon enrollment. A provider may have a
                   different PTAN for each of its service locations.


Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                  11
                   provider’s tax identification number, not the provider number, to perform
                   this offset.
                   Currently, CMS pays fees to Treasury for collecting overpayments through
                   offsetting and other means. CMS reported that collection fees are $17 per
                   offset. For FY 2010, CMS paid fees of $6 million on collections of
                   approximately $39 million. These collections included Treasury Offset
                   Program collections as well as Treasury and private collection agency
                   collections received directly from providers.
                   CMS could save some of these fees if it used tax identification numbers
                   internally for offsetting purposes. CMS has already begun this process in
                   HIGLAS for certain debts.
                   Regarding the use of PTANs, one contractor reported that it received CMS
                   approval to cross-reference a provider’s PTANs. This allowed the
                   contractor to collect overpayments from a provider who stopped billing
                   under one PTAN but continued to obtain payment under another.
                   Appendix A lists contractor recommendations for overcoming hindrances
                   to reducing CNC debt.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                            12
                   CONCLUSION AND RECOMMENDATIONS
                   It is critical that CMS make efforts to reduce the number and dollar
                   amount of overpayments that become CNC since these overpayments are
                   unlikely to be recovered. In 2010, CMS reported $543 million in new
                   CNC debt. However, CMS had difficulty retrieving detailed data about all
                   CNC overpayments from a central source or from all of its contractors in a
                   timely way. The financial data CMS was able to provide for 7 of 39
                   contractors was too limited to use for a comprehensive contractor- or
                   provider-level analysis of CNC overpayments. Such analysis could help
                   CMS target its efforts to reduce the number and dollar amount of CNC
                   overpayments.
                   CMS could provide detailed data for only seven contractors, representing
                   22 percent of Medicare payments. Moreover, no provider type was
                   identified in 54 percent of CNC overpayments for these seven contractors.
                   Without this detailed information, CMS cannot target its efforts to collect
                   overpayments.
                   Although the detailed overpayment data for seven contractors were too
                   limited to allow an in-depth analysis of all CNC overpayments, CMS’s
                   summary data across all contractors show that, each year, half a billion
                   dollars will likely not be recovered. The detailed data for the seven
                   contractors showed that 97 percent of FY 2010 CNC overpayments were
                   never recovered.
                   Contractors said undeliverable demand letters were a problem and that
                   automated letters from HIGLAS were not always addressed to the location
                   requested by the provider. CMS and some of its contractors said debt
                   recovery would be improved if CMS used additional provider identifiers,
                   such as tax identification numbers, to offset Medicare payments.
                   We recommend that CMS:
                   Ensure That the HIGLAS Variable for Provider Type Is
                   Populated for All Overpayments
                   CMS included the provider type variable in HIGLAS, yet OIG found a
                   substantial number of records in which this variable was blank for Part B
                   overpayments. CMS should ensure that all overpayments, regardless of
                   claim type, have this information. When this variable is populated, CMS
                   will be able to determine which provider types have the greatest CNC
                   debt.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                            13
                   Ensure That Demand Letters Are Mailed to the Contacts and
                   Addresses Identified by the Provider
                   Contractors reported that HIGLAS does not necessarily send automatic
                   demand letters to the address providers prefer, especially for Part A
                   facilities. To provide contractors with an opportunity to make a voluntary
                   repayment without incurring interest, CMS should take steps to ensure that
                   demand letters are correctly addressed.
                   Use Tax Identification Numbers and PTANs in Addition to
                   Provider Numbers To Offset Payments and Collect
                   Overpayments
                   Treasury programs routinely use tax identification numbers to identify
                   providers that are receiving Government payments. CMS has begun using
                   this tool in HIGLAS for certain debts, and we recommend that it use this
                   tool routinely for all debts. By using the tax identification number to
                   identify affiliated Medicare providers whose payments can be offset, CMS
                   can start offsetting without delay and potentially recover more
                   overpayments. Moreover, CMS could save money by reducing the fees it
                   pays to Treasury for certain collections.
                   CMS should also require contractors to cross-reference PTANs to ensure
                   overpayment collection from providers who stop billing under one PTAN
                   but continue to obtain payment under another. If necessary, CMS should
                   add PTANs as a data element in HIGLAS.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                        14
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with one of OIG’s three recommendations and stated that,
                   aside from CNC overpayments, its debt collection efforts have been very
                   effective. CMS noted that it collects approximately 80 percent of its debt
                   before the debt becomes CNC and is referred to Treasury.
                   CMS partially concurred with our first recommendation, that it ensure that
                   the HIGLAS variable for provider type is populated for all overpayments.
                   CMS noted that adding the provider type for all overpayments will not
                   improve its recoupment efforts since the field is not used in the collection
                   process, but stated that it will review the option of making the provider
                   type field mandatory in HIGLAS. OIG continues to recommend that CMS
                   ensure that the provider type field is complete, as CMS may use this
                   information to identify provider types with the greatest CNC debt and to
                   better target its debt collection efforts.
                   CMS did not concur with our second recommendation, that it ensure that
                   demand letters are mailed to the contacts and addresses identified by the
                   provider. CMS stated that demand letters are already mailed to the
                   addresses identified by providers in the Provider Enrollment, Chain, and
                   Ownership System (PECOS). CMS also stated that it encourages
                   contractors to educate providers on the importance of providing their
                   correct billing address and contact person, and keeping this information
                   updated. A number of CMS’s contractors reported problems with
                   providers’ contact and address information on demand letters. In a May,
                   2013 report entitled Improvements Needed To Ensure Provider
                   Enumeration and Medicare Enrollment Data Are Accurate, Complete, and
                   Consistent (OEI-07-09-00440), OIG assessed provider enrollment data
                   and found significant problems with the accuracy of providers’ address
                   information in PECOS. Therefore, OIG continues to recommend that
                   CMS take additional steps to ensure that demand letters are delivered to
                   correct provider contacts and addresses.
                   CMS concurred with our third recommendation, that it use tax
                   identification numbers and PTANs in addition to provider numbers to
                   offset payments and collect overpayments. CMS noted that the offsetting
                   function in the version of HIGLAS that it is using does not allow for
                   offsetting across business entities. CMS stated that HIGLAS is based on a
                   commercial off-the-shelf product and the most current version of the
                   product has been upgraded to allow for this functionality. However, CMS
                   has been directed by the Office of Management and Budget to not upgrade
                   to the newer version of the software. CMS noted that it hopes to be
                   allowed to implement the newer version, which would allow for faster

Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                          15
                   collection of overpayments, increased collections through offset, and
                   ultimately a reduction in CNC debt. OIG agrees that tax identification
                   numbers should be used to offset overpayments across all business
                   relationships and hopes that CMS will be granted the opportunity to
                   upgrade to the newer system soon.
                   CMS stated that it disagrees with OIG’s finding that CMS was able to
                   provide detailed information on CNC overpayments for only seven
                   contractors. CMS stated that it had decided not to transition to HIGLAS
                   detailed information to support previous years’ overpayment data. Rather,
                   the detailed information remained in former Medicare contractors' legacy
                   systems. CMS stated that data for the remaining contractors were
                   available, but that providing the detailed information for those
                   32 contractors would involve an extensive amount of Medicare
                   contractors’ and CMS resources to obtain the data.
                   OIG requested that CMS provide detailed information regarding CNC
                   overpayments for all 39 CMS contractors. However, as noted in the
                   findings of this report, CMS indicated that detailed overpayment
                   information for 32 contractors would have to be searched for and entered
                   manually. One CMS contractor alone estimated that it would take
                   3,421 staff hours to look up and enter the information that OIG requested
                   regarding the contractor’s CNC overpayments. OIG only accepted from
                   CMS detailed CNC overpayment information for the seven contractors
                   because these were the only contractors with detailed data that CMS was
                   able to provide in a timely way and without extensive staff resources.
                   The full text of CMS’s comments is provided in Appendix B.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                            16
                   APPENDIX A
                   Contractor Recommendations Regarding Currently Not
                   Collectible Debt
                   Fifteen contractors said they encounter issues that make it difficult to
                   reduce the number and/or dollar amount of currently not collectible (CNC)
                   overpayments. The table below contains a list of issues identified by the
                   contractors and their suggestions for addressing the issues.



                       Number of
                      Contractors
 Issue                                                                                     Contractor Recommendations
                   That Identified
                    Issue (n = 15)
 Inaccurate                      9   Send demand letters to specific contacts and not to generic addresses at large
 Contact                             facilities.
 Information for                     Implement a programming change for the Healthcare Integrated General Ledger
 Provider                            Accounting System (HIGLAS) to pull the appropriate address for demand letters from
                                     the provider file of the Part A claims processing system.
                                     Similar to the Do Not Forward process for undeliverable checks, if an overpayment
                                     demand letter is returned as undeliverable, make no further payments until the
                                     provider updates its address with Medicare.
                                     Conduct more frequent validation of provider address information.
 Bankruptcy                      6   Pass legislation that clarifies bankruptcy rules regarding Government debts.
 Cases                               Look at the bankruptcy process involving the Office of the General Counsel, the
                                     regional office, and the contractor community. Perhaps a central data repository
                                     would improve coordination. Contractors wait a considerable time for direction on
                                     disposition and status of various bankruptcy areas.
 Appealed                        5   Allow offsetting of certain overpayments in appeal. This would require legislative and
 Overpayments                        regulatory change regarding the limitation on recoupment provisions [§ 935 of the
                                     Medicare Prescription Drug, Improvement and Modernization Act of 2003].
                                     Have HIGLAS wait to classify overpayment as CNC until the appeal process is
                                     completed.
 Overpayments                    5   Establish an automated process similar to the Non Treasury Disbursing Office levy
 Not Collected                       process as a way to recover overpayments. For example, a process could
 From Affiliated                     automatically offset a provider's tax refund or other Government payments if there are
 Providers,                          outstanding Medicare overpayments in HIGLAS.
 Terminated
                                     Provide contractors with Medicaid contact names for States within their jurisdiction to
 Providers, and
                                     begin establishing processes for recoupment against Medicaid funds.
 Other Sources
                                     Change the system to collect nondemanded Part A overpayments (i.e., those initiated
                                     by providers) by offsetting affiliated providers. Currently, Part A nondemanded
                                     overpayments are not collected from affiliated providers.
                                     Establish regulation, change manual, and change Statement of Work to allow
                                     collection from related organizations. Currently, if the debt is uncollectible for a
                                     provider that has a related organization, the contractor is not able to pursue recovery
                                     from the related organization.
                                     Provide contractors with the option of bypassing the automatic classification when
                                     they have knowledge that the debt is collectible. CNC classification is currently
                                     controlled by HIGLAS.
                                     Change the system to automatically recover overpayments based on shared tax
                                     identification number.
                                     Do not allow providers to reenroll in Medicare if they have past Medicare debts.

                                                                                                continued on next page




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                                      17
(Continued)


                           Number of
                          Contractors
 Issue                                                                                                 Contractor Recommendations
                       That Identified
                        Issue (n = 15)
                                      3    Automate the daily phone call list (for Part A overpayments delinquent 45 days and
 Insufficient Use                          for Part B overpayments delinquent 60 days) within HIGLAS.
 of Automation                             Automatically generate notification to the overpayment area if an extended
 and                                       repayment loan is in default status. Currently, the overpayment staff has to manually
 Technology                                look for defaulted loans.
                                           Create an automated flag within reports of Medicare Recovery Audit Contractor
                                           appeals if an account in appeal status has reached a problematic level of aging.
                                           Currently, collection staff has to look through reports using various report filters.
                                           Create a portal through which providers can look up how much they owe the
                                           Medicare program.
                                           Create a portal through which providers can input both their credit balance
                                           adjustments and their quarterly Comprehensive Error Rate Testing page. This would
                                           significantly lower administrative costs to the program.
                                           Further automate communication between the Centers for Medicare & Medicaid
                                           Services’ (CMS) Debt Collection System, Department of the Treasury (Treasury), and
                                           contractors.
 Part A Held                           2   Make changes in HIGLAS to release held funds for the amount of overpayments
 Funds                                     without releasing the hold on payments. If a Part A provider is on full payment hold
                                           for any reason, including failure to submit a cost report, HIGLAS holds payments but
                                           does not apply them to outstanding debts. This lack of debt recovery leads to
                                           increased CNC debt.
 Threshold for                         2   Reevaluate dollar threshold for referrals to Treasury. Currently, individual
 Demand Letter                             overpayments less than $25 are not referred to Treasury even if the demand letter
 and Treasury                              involved multiple overpayments greater than $25 in the aggregate. CMS policy
 Referral1                                 requests contractors to submit these debts for “write off—closed” instead of
                                           submitting the aggregate amount to Treasury.
                                           Raise Part B threshold amount for demand letter from $10 to $25 to be consistent
                                           with the $25 threshold for referring overpayments to Treasury. Currently, Part B
                                           overpayments less than $10 are considered under threshold and no demand letter is
                                           sent for these amounts.
 Other                                 3   Allow contractors to receive contingency fees for debts collected over a certain age
                                           based upon uncollectible status. This will give them an incentive to increase
                                           collections through various legal means such as offset through affiliated companies
                                           or collection through current employers.
                                           Allow contractors greater flexibility in approving requests for extended repayment.
Source: Office of Inspector General survey, March 2012.
1
  CMS requires contractors to send demand letters to providers to collect Part A overpayments of $25 or more and Part B overpayments of
$10 or more. Parts A and B debts under these thresholds can be aggregated to meet the threshold amount and then demanded. Debts
under $25 are not eligible for Treasury referral and CMS does not require aggregation of amounts under this threshold.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                                                                  18
                          APPENDIX 8
                          Agency Comments



  (
         .
      ~#'4
        "<<> ....

             ~	 DEPARTMENT OF HEALTH & HUMAN SERVICES                                          Centers for Medicare & Medicaid Services


      '--.-~ 	                                                                                 Administrator
                                                                                               Washington, DC 2020t




                                     MAR 2 7 2013
                DATE:

                TO: 	             Daniel R. Levinson 

                                  Inspector General 

                                                      /S/
                    FROM: 	       Marilyn Tavenner 

                                  Acting Administrator 


                    SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Medicare's Currently Not
                               Collectible Overpayments," (OEI-03-11-00670)


                    Thank you for the opportunity to review and comment on the OIG draft report referenced above.
                    The OIG set out to describe details of a certain class of Medicare Part A and B overpayments
                    that were identified in fiscal year (FY) 2010 and classified under financial accounting rules as
                    "currently not collectible" (CNC) by December 31 , 2011. OIG also wanted to identify the
                    annual dollar amount of new CNC overpayments from FYs 2007 and 2010. Additionally, OIG
                    wanted to identify issues that hinder efforts to reduce the number and dollar amount of
                    overpayments that become CNC, and to identify strategies for reducing the number and dollar
                    amount of overpayments that become CNC.

                    The Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources OIG
                    has invested in this review of CNC overpayments. CMS is committed to using its resources to
                    collect overpayments in a manner that is cost effective, efficient, and ensures compliance with
                    statutory and regulatory requirements . Outside of this class of overpayments, CMS ' debt
                    collection efforts have been very effective. Based on an internal review of the Medicare
                    contractor financial reporting for the past four fiscal years, CMS collects approximately 80
                    percent of its debt prior to the debt becoming CNC and prior to its debt being referred to the
                    Department of the Treasury (Treasury) . This percentage was calculated using the Medicare
                    contractor's accounts receivable reports for FYs 2009 and 2012.

                    The CMS uses various tools to aggressively pursue the collection of overpayments throughout
                    the timeline of a debt. CMS uses the CNC accounting classification for debts that are over 180
                    days delinquent. A CNC classification does not stop or hamper CMS collection strategies. CMS
                    aggressively goes after all debts by issuing demand letters, making phone calls, recouping
                    current payments, working with debtors who request an extended repayment schedule (ERS),
                    issuing intent to refer letters, and referring debt to Treasury for collection.

                    The CMS' most successful collection tool is internal recoupment, where the Medicare contractor
                    recoups overpayments from subsequent payments to the debtor. Another successful tool CMS
                    uses to collect debts is approving an ERS. An ERS can be granted for a period of up to 60




Medicare's Currently Not Collectible Overpayments (OEI-03-11-00670)                                                                       19
Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)   20
Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)   21
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                   Isabelle Buonocore served as the team leader for this study. Other Office
                   of Evaluation and Inspections staff from the Philadelphia regional office
                   who contributed to the report include Conswelia McCourt, Amy
                   Henderson Riley, and Amy Sernyak; central office staff who provided
                   support include Scott Manley and Debra Roush.




Medicare’s Currently Not Collectible Overpayments (OEI-03-11-00670)                            22
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
